<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 115-583]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-583

                              NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 28, 2018

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                   Available on http://www.govinfo.gov
                 
                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
35-238                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>                      
                 
                 
                 
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
              Elizabeth Peluso, Democratic Staff Director
                         
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     4
Statement of Donald L. Palmer, to be Commissioner of the Election 
  Assistance Commission..........................................     2
Statement of Benjamin W. Hovland, to be Commissioner of the 
  Election Assistance Commission.................................     6

                        Prepared Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    18
Donald L. Palmer, to be Commissioner of the Election Assistance 
  Commission.....................................................    19
Benjamin W. Hovland, to be Commissioner of the Election 
  Assistance Commission..........................................    24

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Mr. Donald Palmer..............................................    26
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Mr. Donald Palmer..............................................    29
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Mr. Benjamin Hovland...........................................    33

 
                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2018

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:50 p.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Klobuchar, Wicker, Fischer, King, 
and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The meeting will come to order and I 
apologize for being tied up in an earlier event. I'm glad my 
colleagues have joined us and our witnesses are here today. 
Shortly, we'll hear from both of the nominees to serve as 
members of the Election Assistance Commission, congratulate 
both of you on your nomination.
    This Commission was authorized by the Help America Vote 
Act. I have wondered, frankly, in recent years if there was a 
real role for the Commission but as I've told both of you, I 
think that the events of the last couple of years indicate that 
the Election Assistance Commission in many ways is likely to be 
more important right now and in the future than it's been up 
until now.
    I think it is the logical nexus for local election 
officials and state election officials--and I did both of those 
jobs in my career as the Secretary of State of Missouri and as 
a local election official, as well--but to have that point of 
contact, whether it leads to the homeland security and the 
discussions about assistance in cyber vulnerabilities or 
whether it leads to a discussion about the kind of equipment 
that's needed and what information may be available for that 
equipment. We're lucky to have both of you here for this 
hearing.
    Senator Klobuchar will be here in a moment, but let me 
first introduce--I'm going to let Senator Klobuchar introduce 
Mr. Palmer because they've had a strong working relationship as 
Mr. Palmer's had with this committee and we might have 
eventually introduce--I might eventually introduce you, as 
well, Mr. Palmer.
    But before I do that, let me introduce--so why don't I 
introduce you, Mr. Palmer and then we'll let you make your 
opening remarks and then we'll let Senator Klobuchar, when she 
gets here, introduce our other nominee.
    President Trump nominated Donald Palmer earlier this summer 
to fill the term of former Commissioner Matt Masterson. That 
term will expire in December 2011.
    If confirmed, Mr. Palmer would bring a broad range of 
election experience to the Election Assistance Commission. From 
2011 to 2014, Mr. Palmer served as the Secretary of the 
Virginia State Board of Elections. He was also the Director of 
Elections for the Florida Department of State from 2008 until 
2011, which appears to be the period that Florida didn't have 
any crisis in their election system, so that window is pretty 
good.
    Prior to his work for those two state governments, Mr. 
Palmer was an attorney with the Voting Section of the U.S. 
Department of Justice, Civil Rights Division, where he enforced 
Federal voting and civil rights laws.
    In addition, Mr. Palmer is a military veteran, retiring 
from the U.S. Navy after serving two decades as an intelligence 
officer and judge advocate general.
    Mr. Palmer, you'll be the first to testify this afternoon.
    Before you begin your remarks, I'd like to recognize the 
family members that are with you today. Your wife Laura and 
your son Benjamin are over here backing you up and we are glad 
that you're here to join us.
    Mr. Palmer, why don't you go ahead and make your opening 
statement?

OPENING STATEMENT OF DONALD L. PALMER, TO BE COMMISSION OF THE 
                 ELECTION ASSISTANCE COMMISSION

    Mr. Palmer. Thank you, Chairman Blunt, and Ranking Member 
Senator Klobuchar, for scheduling this hearing.
    I would like to thank the Speaker of the House, the 
Representative Paul Ryan, for placing my name forward as his 
choice for the Election Assistance Commission.
    I would also like to thank the President of the United 
States for my nomination.
    I'm honored to be considered for this position and to again 
serve the Nation's voters.
    If confirmed, my goal as a commissioner would be to leave 
the United States electoral system stronger and more secure for 
the next generation of Americans, to assist state and local 
election officials, to upgrade our voting process with new 
technologies and meet the expectations of voters.
    I'll also work to ensure that our voting equipment is more 
accurate and more usable for voters, that our voting equipment 
and voter registration systems are more secure in defending 
against threats of any kind from any source, and that our 
voting equipment is more accessible to voters with disabilities 
and for our rapidly aging population.
    Additionally, I will focus on assisting state and local 
election officials in the challenges that they will inevitably 
face in the next decade.
    In my career of public service, I've been guided not just 
by the oath to defend the Constitution but the belief that the 
administration of free and fair elections is a sacred duty in 
and of itself.
    One must always remember that the exercise of democracy is 
temporarily entrusted in your hands for a length of time and 
that you are responsible for it.
    As Ronald Reagan said, ``Freedom is never more than one 
generation away from extinction. We didn't pass it to our 
children through the bloodstream. It must be fought for, 
protected, and handed on to them to do the same.''
    For our republic to work, our citizens must believe that 
the will of the people will be exercised with elections, that 
the government derives its power from the consent of the 
governed, and that the vote was free and fair and that both the 
winner and the loser of an election can objectively say who was 
the actual winner of the election.
    As a Navy intelligence officer and JAG, my commitment was 
to defend our way of life, including the ability for Americans 
to exercise their right to vote. Similarly, at the Department 
of Justice, Voting Section, I took a similar oath to defend the 
rights, the voting rights of all Americans, regardless of their 
color, ethnicity, and economic status, and to ensure all 
Americans were able to vote.
    There, I defended the rights of Americans to vote under the 
Voting Rights Act and worked to protect the rights of the 
military and overseas voters and language minorities where I 
investigate election practices, monitored polling places across 
the country, and represented the United States in Federal court 
to ensure that the voting rules established by this Congress 
were followed.
    I've worked with states closely to assist election 
officials in complying with the National Voter Registration Act 
and the Help America Vote Act, to improve the integrity of our 
electoral system, maintain the accuracy of our voter 
registration rolls, and to facilitate private and independent 
voting by voters with disabilities.
    As a state election administrator in two states, I managed 
Presidential elections in those battleground states, including 
Presidential primaries, special elections, midterm elections, 
gubernatorial races, and a statewide recount in Virginia for 
Attorney General.
    My goal has always been and will continue to be to ensure 
uniformity, fairness, accuracy, and purity in all elections.
    During my time in office, over 20 million voters 
successfully cast ballots by mail, early voting, and on 
election day, and local election officials in those states 
overcame all types of challenges, hurricanes, floodings, 
snowstorms, and earthquakes, to successfully administer the 
elections on behalf of all of its citizens. They deserve a lot 
of credit.
    I see new technology as a way to improve the voting 
experience for voters. I have worked closely with the Virginia 
General Assembly in the passage and implementation of online 
voter registration and registration data-sharing, both 
initiatives that became future recommendations of the 
Presidential Commission on Election Administration created by 
President Obama.
    More recently, I've worked with the bipartisan Policy 
Center to advance consensus recommendations and worked closely 
with states and localities across the country to collect data 
at the precinct level in an effort to reduce long lines of 
voters and make the voting process more efficient.
    Working with colleagues on both sides of the aisle, we 
highlighted the current voting technology crisis in America and 
encouraged states and localities to provide additional 
resources to upgrade our electoral infrastructure.
    As a former intelligence officer at the end of the cold 
war, I remain vigilant to the threats this Nation faces from 
its foes, particularly the Russians, and am dedicated to 
working closely with our Federal partners to make sure states 
and localities have the information and the means to defend 
their systems from intrusion.
    The EAC will have an opportunity to continue the process of 
developing new voluntary voting system standards with state and 
local election officials, NIST, and other stakeholders.
    Together, we can provide increased security, usability, and 
accessibility to American voters for future elections.
    The EAC will need to find better ways to communicate with 
the American people on the state of the electoral process in 
this country. While the EAC does not have as large a voice as 
some, in order to set the record straight, we need to educate 
voters to better distinguish facts from myths and to improve 
overall public confidence on the security, fairness, and 
integrity of our electoral system.
    I would like to thank the local election officials and 
staff in both Virginia and Florida for their dedication and 
commitment to administering elections and all the efforts that 
you have made to ensure elections free and fair. It's made my 
second career as fulfilling as the first.
    I'd also like to thank my wife, my parents, and my children 
for making my life equally as fulfilling and showing patience 
with me as I follow my dreams.
    Thank you, sir.
    [The prepared statement of Mr. Palmer was submitted for the 
record.]
    Chairman Blunt. Thank you, Mr. Palmer.
    Mr. Hovland, it's good to see you here this afternoon, and 
I guess you're looking at this dais from this side for the 
first time. You've looked at it from back here backing us up a 
number of times.
    I want to recognize Senator Klobuchar to formally introduce 
you and your family.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you so much, Mr. Chair, and 
I was a little late at another event. I just want to thank you 
all for being here.
    I will just briefly say how important it is to have the 
United States Election Assistance Commission fully staffed.
    As we look back at the midterms, I think we know that we 
need a strong fully functioning Commission now more than ever. 
We must make voting easier. We know the consequences of old 
voting equipment that we saw across the country, long lines, 
confusion, and sometimes disenfranchisement.
    Last month, we saw a number of instances where old machines 
malfunctioned, poll books failed, and voters did not understand 
how to use certain voting equipment, creating long delays. 
These are avoidable problems.
    I'm happy to say that the numbers are in today and 
Minnesota once again had the highest voter turnout in the 
Nation. I think I've a little credibility when I talk about 
this and some of it is that we have same-day registration, but 
we've just worked really hard to create a culture of voting and 
accessibility to voting.
    That's why I congratulate both of you and look forward to 
this hearing, but it is my honor to introduce Mr. Hovland.
    Ben has been a valued, valued member of the Rules Committee 
staff, working with me and working with Senator Schumer. He has 
nearly two decades of experience with elections at both the 
State and Federal level and he'll bring important expertise to 
the Commission.
    He also has strong relationships with election officials 
across the country that will truly be an asset, if he's 
confirmed, because of his direct work with this committee.
    Ben has spent his career making it easier for people to 
vote. Prior to his work on the committee, he served as Senior 
Counsel at the Fair Elections Legal Network, which worked with 
election officials in Colorado, Michigan, Nevada, and New 
Mexico to improve access to the polls and to make registering 
to vote easier.
    From 2008 to 2011, Ben served as Deputy General Counsel in 
the Missouri Secretary of State's Office. In this role, he 
focused on legal issues related to the administration of State 
and Federal elections, including ballot initiatives, poll 
worker training, voter education, and voter registration.
    At a time when we're facing unprecedented attacks on our 
election infrastructure from other countries, it is vital that 
we have a fully functioning EAC led by commissioners who 
understand the nature of the threats against our democracy.
    I would also add that Ben is a proud husband and a dad and 
one of the reasons we know he's qualified for this position is 
that through two opening statements and through Mr. Palmer's 
opening statements, these children have been really quiet and 
it's very, very impressive.
    We see right there Henry, who has some kind of item in his 
hands. Henry, age one, and Harper, age three and a half. His 
wife, Ben's wife Kelly, want to raise your hand there, Kelly, 
coaches women's golf at the U.S. Naval Academy and is the proud 
mom of Harper and Henry, and we're glad that Kelly's family, 
her mom Janet, there she is, and sisters Abby and Katie, thank 
you, you're all in this, very good, could travel from Illinois 
and Louisiana to be here today.
    Finally, Ben joined the committee when Senator Schumer was 
Ranking Member and Senator Schumer has provided a statement for 
the record in support of Ben's nomination.
    I ask that that be included, Mr. Chairman.
    [The prepared statement of Senator Schumer was submitted 
for the record.]
    Senator Klobuchar. I'd like to point out that in Senator 
Schumer's statement, he notes Ben's dedication to making voting 
easier and more secure but also makes mention of Ben's 
commitment to barbecue. In fact, he is an internationally 
licensed judge of barbecue with the Kansas City Barbecue 
Society. Now if that's not a plea for your vote, Senator Blunt, 
I really I don't know what it is.
    Chairman Blunt. It just gets better and better.
    Senator Klobuchar. I just can't come up with anything else. 
That's it.
    But I was so proud to keep Ben on with the Rules Committee 
when I took over from Senator Schumer here. He's done a great 
job with us and the whole staff. I speak for them, as well. 
We're so pleased about your nomination.
    Thank you.
    You want to go ahead? Okay.

OPENING STATEMENT OF BENJAMIN W. HOVLAND, TO BE COMMISSIONER OF 
               THE ELECTION ASSISTANCE COMMISSION

    Mr. Hovland. Good afternoon, Chairman Blunt, Ranking Member 
Klobuchar, and Members of the committee.
    Thank you for holding this hearing on my nomination to 
serve on the United States Election Assistance Commission or 
EAC.
    I also want to thank Senator Schumer for submitting my name 
to the President for consideration and to thank the President 
for nominating me.
    I'd also like to thank Senator Klobuchar for that great 
introduction and introducing my family. Also somewhat 
appropriately, Kelly and I met at the Secretary of State's 
Office, so I owe way more to election administration than most 
people.
    [Laughter.]
    Mr. Hovland. I'd also like to thank my mother Barbara. Her 
health didn't allow her to be here today, unfortunately, but I 
know she's proud to be watching the webcast, and I would like 
to thank my mother-in-law Janet and my sisters-in-law Katie and 
Abby who did travel a long way to be here, and I'd also like to 
thank a number of my friends who are able to join us here 
today.
    It's an honor to be considered for this position and to 
testify regarding my qualifications and interest in serving as 
an EAC commissioner.
    As you know, the EAC's mission is to help election 
officials improve the administration of elections and to help 
Americans exercise their right to vote. I've dedicated my 
career to these same goals.
    Following law school, I worked at the Missouri Secretary of 
State's Office. While there, I was involved in the Secretary's 
efforts to increase access to the polls and improve the voting 
experience for Missourians.
    During that time, I was fortunate to learn a great deal 
about election administration from my coworkers and election 
officials both in Missouri and from around the country.
    My time at the Missouri Secretary of State's Office also 
inspired me to start volunteering as a poll worker, a service I 
enjoy and have continued to do whenever possible. In addition 
to greeting and assisting my neighbors as they exercise their 
right to vote, the experience of serving as a poll worker has 
provided helpful perspective on the amazing work that goes into 
administering our elections and the difficulties some eligible 
Americans face while trying to vote.
    Following my time at the Missouri Secretary of State's 
Office, I moved to Washington, DC, and began working with the 
non partisan advocacy group to improve election administration 
and voter access around the country. This experience helped me 
to understand the many benefits and challenges of each of the 
50 states administering elections in a unique way.
    Then for the last 5 years, I've had the privilege to work 
at the United States Senate for this committee. Working for the 
Rules Committee has provided an incredible opportunity to learn 
more about this great institution and the importance of looking 
for bipartisan solutions.
    Additionally, like many others who work in the election 
field, I've learned far more about election cyber security in 
the past 2 years than I ever anticipated.
    While the need to improve election cyber security 
continues, the 2018 election reminded us of the more 
traditional challenges of election administration, such as long 
lines, voting machine breakdowns, poll worker issues, ballot 
design, and the need for contingency plans.
    The combined result is that being an election official is a 
difficult, often thankless job that does not end on election 
day. I believe we can and should do more to assist the 
officials that run our elections.
    The Election Assistance Commission was created to help 
election officials across the country with the challenges they 
face.
    If confirmed, I am committed to working on common sense 
good government solutions that fulfill the Commission's mission 
to assist election officials and help Americans vote.
    Members of the committee, I thank you for your 
consideration of my nomination and I'll be happy to answer any 
questions that you may have.
    Thank you.
    [The prepared statement of Mr. Hovland was submitted for 
the record.]
    Chairman Blunt. Thank you, Ben and Donald.
    I'm glad you're both here. As I said, I think the 
Commission is going to in some way redefine itself because of 
the renewed focus on how important it is that people have 
confidence in this process and in the way we pursue the 
process.
    I want to thank Senator King for coming first and waiting 
the longest.
    Do you want to start with some questions, Angus?
    Senator King. I'd like to, if you wouldn't mind, Mr. 
Chairman. Thank you.
    Gentlemen, thank you both for being here and for sharing 
your wisdom and experience, which I'm sure you will, on the 
Commission.
    Mr. Palmer, you used the term ``sacred duty.'' That's what 
our elections are. They're really at the heart of the system 
and I often think the Judicial Code of Ethics talks about how a 
judge should avoid not only impropriety but the appearance of 
impropriety, and I think that's so important in terms of 
elections.
    People have to have confidence and they have to be sure 
that the system is working and respecting their votes.
    It's also a difficult process because it's a big 
complicated undertaking. I liken it to a small business that 
does all their sales on one day. You work for months and months 
and except for the absentees, it's all in that crunch at the 
junior high school at 8 o'clock on a Tuesday morning in 
November. So it's a complex process.
    Just a couple of questions. It seems to me, and both of you 
can respond to this, that one of the most important 
responsibilities you have in this job is gaining and holding 
the confidence and trust of the election officials because our 
elections are essentially run by the states and localities.
    I notice I've never seen the word ``voluntary'' used so 
often as it is in this context. It's a reassurance of the 
states, but speak to me about how we can effectively help them 
provide guidance and resources and at the same time alleviate 
any fears of a Federal takeover of elections.
    Mr. Palmer, you want to take a crack at that?
    Mr. Palmer. Sure. Thank you, Senator King.
    I will approach the job as a commissioner very similar to 
the way I approached as a state election official because in 
the end, elections are run at the local level.
    Senator King. Right.
    Mr. Palmer So sitting as a chief election official or a 
director, you have some authority under law but generally you 
are working as a leader and as a teammate of the local election 
officials, so you are training, you are providing guidance, and 
you're doing that as a team.
    Similarly, at the EAC, our job is to assist and to assist 
local election officials with best practices, sort of 
highlighting things that have worked in other states, data that 
can be provided to local election officials.
    In the end, the EAC over the years has gained that trust 
with state and local election officials.
    Senator King. Is that the case?
    Mr. Palmer. I believe it is. I believe it is. They gained 
my trust and I think they gained the trust of many state and 
local election officials and it takes years to do that. It 
takes building--I mean, it's about relationships and about the 
fact that we know we're in this together and that we understand 
that elections are run at the local level and that we're here 
to assist, not to mandate how they're supposed to do things, 
because there's so many different ways of voting and 
registration and just methods of how we do things across the 
country.
    Senator King. Mr. Hovland, your thoughts on how do you help 
without raising the hackles of the Secretary of State of Maine?
    Mr. Hovland. Thank you, Senator.
    Senator King. If you have that problem, let me know. I can 
deal with him.
    Mr. Hovland. I will definitely do that.
    You know, again, I think that so much of this depends on 
just having a dialog and being able to have a conversation.
    As Mr. Palmer pointed out, you know, the Election 
Assistance Commission is there to help and with the nature of 
how our elections are run, as I mentioned earlier, 50 different 
ways or probably more than that but each state running its own 
elections in its own way, what we can really do is have a 
dialog where we find out what it is that election officials 
need assistance with and then we can use the Federal resources 
that have been given to the Commission to try to identify those 
and find solutions that are helpful and whether that's from 
experts or from their colleagues, you know, best practices are 
only good if people implement them, and so again I think a big 
part of it is just having those conversations.
    Senator King. Well, I think that maintaining that level of 
confidence is so important because the whole enterprise won't 
succeed unless the recipients of the assistance are willing to 
accept it.
    Mr. Palmer, this isn't strictly related to your position, 
but I think you have so much experience in this area. I notice 
you testified to the Advisory Commission on Election Integrity.
    Is voter fraud a significant problem in this country?
    Mr. Palmer. Senator, from a micro level, fraud does exist. 
The debate over whether or not it's widespread or it happens in 
certain situations is really a false debate, in my opinion.
    As election administrators, we're concerned--when there's a 
close race or when candidates come to us, they don't ask us was 
it a little bit of fraud or a lot of fraud. They want to have 
clean and pure elections.
    Under the Constitution of Virginia, for example, that's my 
oath. Our goal's always to try to minimize the amount of voter 
fraud or irregularities or mistakes that can occur and leave 
the law enforcement to the Attorney General or the local law 
enforcement agencies to prosecute voter fraud.
    Senator King. Mr. Hovland, do you have any views on that 
question?
    Mr. Hovland. You know, I think, like Don said, there are 
rare instances, I think, where I focused more of my career is 
on trying to identify why more people aren't voting or what 
barriers there are that are keeping people from participating, 
and I certainly think that there are a number of those and we 
can do a much better job of helping people participate.
    Senator King. I think that's an issue we need to pursue.
    Madam Ranking Member, I think Maine is second to Minnesota 
in voting percentage and I think it has to do with states with 
large numbers of lakes, maybe.
    Senator Klobuchar. Or maybe when it gets so cold, they have 
nothing else to do but to vote.
    Senator King. Mr. Chairman, thank you very much. I 
apologize. I have to go to another commission meeting now, but 
I appreciate your indulgence.
    Chairman Blunt. Well, thank you. Thank you for putting in 
your time and getting here on time and having the patience to 
wait for us, and this is an important hearing.
    As I said, I think twice now, it's going to be a more 
important Commission than I think it has been in the past. I 
think the new focus on how we vote and who gets to vote and 
when they get to vote and, frankly, I'd like to see a new focus 
on when the votes are counted.
    Again, you're advisory on these issues, as well, but in 
these states where you have 40 percent of the votes cast before 
election day and you decide that you're not going to count 
those before election day and you're going to--it's just 
amazing to me as someone who always thought that having the 
result but also having the result in the most timely way was an 
important part of what we do.
    But you're going to provide a quorum. I'm committed to do 
everything I can to see that you're both confirmed and you're 
going to provide a quorum. There have been voluntary standards 
out there since 2015 but they haven't been approved because 
there was no quorum on the Election Assistance Commission.
    First of all, you may want to very well look at the 
voluntary standards. The new half of the Commission coming in 
look at the voluntary standards with the two people currently 
there and say, okay, what have we learned since 2015 before we 
put these out.
    But I think following up on a point that Mr. Palmer made, 
you know, they are voluntary standards. The job of the Election 
Assistance Commission is to give assistance, not to take over 
the running of the elections but voluntary standards, model 
systems, all of those things I think are more and more 
important.
    On those voluntary standards, I think in this committee and 
Senator Klobuchar and I are both in agreement that some kind of 
paper trail where the voter has a chance to see how they voted 
and that vote is able to be looked at at a later date seems to 
me to be the ultimate safeguard when people question what 
happened on election day.
    I think we have a handful of states now that don't require 
a paper trail, but I'd like for both of you to talk about that 
particular topic.
    Let's start with you, Mr. Palmer.
    Mr. Palmer. Thank you, Senator.
    While the debate over paper is important, the EAC, I 
believe, certifies only equipment with a paper trail or a paper 
ballot and like you said----
    Chairman Blunt. But you can have equipment that is 
certified by the EAC, right?
    Mr. Palmer. Exactly. Yes, sir.
    Chairman Blunt. Okay.
    Mr. Palmer. In my experience in both Florida and Virginia, 
particularly in Florida, we transitioned away from DREs to a 
paper optical scan in 2008 in a Presidential year.
    In Virginia, our legislature had banned DREs but had not 
provided funding----
    Chairman Blunt. The DRE is what?
    Mr. Palmer. Direct Recorded Electronic Machine. It's an 
electronic voting machine.
    Chairman Blunt. Where you see what you've done as a voter 
but there's no----
    Mr. Palmer. It's not necessarily a paper trail but 
sometimes there is.
    The General Assembly banned DREs, future purchase of, but 
did not provide funding to the localities to transition to 
paper and so this has been an ongoing issue in the election 
community for over a decade as the community slowly transitions 
to paper digital scan. A lot of it is a resource issue, 
Senator.
    Many localities simply did not have the resources to 
transition to the new digital scan equipment. They waited and 
they've continued to wait until those machines either did not 
work and that's why many of us have been sort of discussing and 
trying to convince localities and local election officials to 
make that transition before their equipment just simply died or 
was totally vulnerable to outside penetration.
    That's a struggle that the states and localities have been 
battling with over the last, you know, decade.
    Chairman Blunt. The importance of some kind of ballot trail 
in your view?
    Mr. Hovland. I would echo a lot of what Mr. Palmer said 
and, you know, agree that certainly I believe that paper is the 
best practice. I think that's fairly well established with the 
Commission's work, but as he highlighted, there are a number of 
states that have made the decision not to go that route, again 
largely for resource purposes, and so that seems to be more of 
a legislative fix than one at the Commission, but I wouldn't 
anticipate any changes in attitude toward paper or certainly 
not against paper.
    Chairman Blunt. I think there will be time for a second 
round here. Let's go ahead and go to Senator Klobuchar and then 
Senator Cortez Masto.
    Senator Klobuchar. Thank you very much.
    Just following up on Senator Blunt's questions and I 
appreciated the help that he gave us to try to move the Secure 
Elections Act that Senator Lankford and I were leading and 
unfortunately we weren't able to get it done this time but 
hopefully we can do it next year.
    We did get 380 million out, as you're well aware, has 
helped with that, Mr. Hovland, and do you think, as we look at 
the paper ballot issue that Senator Blunt raised, do you think 
that we should look at additional allocations in the future as 
we head into the 2020 elections and the idea of tying this to 
if states are going to take additional Federal election money 
that they also do something about the paper ballots and 
auditing?
    Mr. Hovland. Thank you, Senator.
    From the conversations I've had with election officials and 
my experience in this space, I've found that resources are 
always welcome.
    I mentioned earlier that best practices are only as good if 
people will implement them. Well, one of the reasons that 
people often don't implement best practices is the lack of 
resources and so I think if Congress was inclined to provide 
additional funding, I'm fairly confident that that would be 
welcome and I'm certain that it would be put to good use.
    Senator Klobuchar. All right. For both of you, I'll start 
with you, Mr. Palmer, what's your top priorities when you get 
on to the Commission, if you get confirmed?
    Mr. Palmer. Thank you, Senator.
    The top priority, I believe, is we do have voluntary voting 
system guidelines that need to be reviewed by us, if we were 
confirmed, and we need to be able to identify what those 
accessibility features are, security features, and allow the 
other commissioners, as well, to have input into those 
standards. That would probably be the initial big ticket item 
that we will face.
    I have other----
    Senator Klobuchar. Would you look at standards for voting 
equipment and things in there?
    Mr. Palmer. Yes, the voting system, those are for voting 
equipment.
    Senator Klobuchar. Very good. Thank you. Mr. Hovland.
    Mr. Hovland. I would agree that the Voluntary Voting System 
Guidelines 2.0 need to be finalized. Certainly that has been 
something that has been waiting for and as I've talked to 
election officials around the country and advocates, they have 
expressed that that is certainly what they hope our top 
priority will be.
    Additionally, while I mentioned in my testimony that many 
of the incidents that we saw in the 2018 election were more 
traditional in nature, I don't think that we can forget about 
the cyber security issue. I think the Commission did a 
fantastic job following in 2017 helping--after the critical 
infrastructure designation, the EAC really stepped up and 
helped to stand up that subsector and I think continuing to 
work there, recognizing DHS's or Homeland Security's expertise 
around cyber security but also recognizing that they have a lot 
of other jobs to do.
    The Election Assistance Commission has one job. It works on 
elections and so I certainly hope to work with them and work 
with the Government and I believe former Commission Masterson 
testified here about the whole of government approach and I 
completely agree with that and hope to work on that at the 
Commission.
    Senator Klobuchar. Okay. One of the things that when 
Senator Lankford and I were working on that bill, we did a lot 
of work coordinating with the Secretary of States, some liked 
us, some didn't, but we worked really hard to meet their 
concerns on that bill and I think we're close to getting 
something that was passable.
    How about that? How do you think we could do a better job 
in the Federal Government to work with local election 
officials, either of you with your experience?
    Mr. Hovland. I'll start. You know, again, I think that a 
large part of it is what I mentioned earlier to Senator King. I 
think it's having a dialog. I noticed that we have 
representatives from NAST here today and through the process of 
working on that legislation, I know there were a number of 
conversations about priorities and again I think, Senator 
Klobuchar, you were able to get a number of bipartisan 
cosponsors and in my 5 years with the committee, there has not 
been any legislation that had that many.
    I think it's the right direction. I think----
    Senator Klobuchar. Should I let Senator Schumer know that? 
I'm kidding.
    Mr. Hovland. But I think continuing to have those 
conversations and iron out some of the small details.
    Senator Klobuchar. Okay. Very good. Anything you want to 
add? I know this was similar to what Senator King asked.
    Mr. Palmer. Yes, Senator. The best approach is obviously 
just the conversation, discussing, and trying to solicit what 
would be the financial impact, what are the burden on their 
local election officials.
    Senator Klobuchar. I guess one other thing. I agree with 
all that. One of the things we've found is like most of them 
were okay and then a few disagree and we're going to have to 
get to some point. What I'm worried is we won't, especially 
with the House now next year.
    There's not going to be any more money here unless we get 
some agreement, that's just my guess, coming out of the House 
on paper ballots and a few things, and we don't have to say 
exactly what that bill will be, but I think a lot of our 
members now feel that way.
    Senator Lankford and I feel that way very strongly. I was 
hoping that the EAC will be a bridge to that, will explain this 
to them because a lot of them would agree and then a few of 
them don't and they've got to understand we're serious about 
it, I think, so just want to add that.
    Mr. Palmer. Senator, I would just add that from a financial 
perspective, again because elections are at the local level, 
most of the expenditures are actually at the local level.
    Senator Klobuchar. Oh, I know.
    Mr. Palmer. When we have the same discussion, how much is 
the state legislature going to fund localities, and believe me, 
it's the same discussion at the local level that we have at the 
Federal level and so usually a partnership of funding usually 
is the best approach. There's a match of some sort.
    Senator Klobuchar. Right. I guess we could have it. I mean, 
what we're doing is we're not putting a mandatory requirement. 
We're just saying if you want to get the Federal money, then 
you're going to have to, you know, have backup papers and most 
of the states do. It's 14 that don't.
    Mr. Palmer. Well, for example, I believe the State of 
Colorado received a HAVA grant from the Election Assistance 
Commission to sort of explore post-election audits and they 
used some of that funding for the preparation of that audit.
    Senator Klobuchar. Right.
    Mr. Palmer. That's an example of different ways to.
    Senator Klobuchar. Exactly. All right. Thank you.
    Chairman Blunt. Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Gentlemen, welcome, congratulations on your nominations. 
Congratulations to your families.
    I want to stay on the topic of election security and 
particularly in Nevada, I know many of our communities and our 
counties are rural and there are many challenges in our rural 
communities, one of them being a lack of resources, 
particularly when it comes to the need for dedicated IT support 
staff, as well.
    I guess my question to you is, how should the EAC address 
the unique challenges of election security faced by our rural 
communities? What should we be thinking about? What should we 
be focused on to help those rural communities when it comes to 
election security, as well? I'll open it to both of you.
    Mr. Palmer. Well, Senator, I think you nailed it on the 
concern over rural--on to resource offices in really any state.
    The cyber security protections at the state level are 
fairly significant with the executive branch and Government as 
a whole being, you know, they're focused on these issues, but 
the big question is how do you support localities?
    This is where the EAC could play, I think, a more 
significant role in support of that in conjunction, working in 
cooperation with DHS. The key is to help those localities have 
enough IT support that they can be in a uniform place where the 
state is comfortable that these IT offices are secure.
    Senator Cortez Masto. Okay.
    Mr. Hovland. I'd add that I think one of the great things 
that the Commission can do is help to relay some of the best 
practices that other states and localities are taking on.
    Earlier this year, at a hearing at this committee, I know 
Noah Prates from Cook County, Illinois, spoke very eloquently 
about cyber navigators and there's been a lot of discussion 
about individuals who maybe work for the state but are able to 
assist a number of counties and we've seen that in other 
jurisdictions and I would just highlight that as an example of 
recognizing that there are a number of jurisdictions that don't 
have the resources and likely don't have the population to 
demand their own election IT expert but if they were pooled 
together, they may be able to accomplish that.
    Senator Cortez Masto. I appreciate that because I know just 
as the Attorney General of Nevada, we represented the Secretary 
of State's Office, but there was an election integrity task 
force and so similarly there are best practices where you can 
pool the resources of a state to help with our local 
communities and I would assume that's something the EAC then 
can adopt or at least highlight those models for other states 
to look at, as well. Is that what you're saying?
    Mr. Hovland. Yes. I think that's one of the great things 
that the Commission can do with its clearinghouse function is 
really highlight the excellent work that election officials are 
doing around the country.
    When we were talking about the $380 million earlier this 
year or earlier in the conversation that was given out, I think 
that one of the things the Commission is responsible for 
auditing that but I also think it's important for the 
Commission to highlight the great work that that's done because 
taxpayers end up getting the most out of their dollars if other 
jurisdictions see what their colleagues have done and adopt 
similar practices.
    Senator Cortez Masto. Yes. No, that makes sense to me.
    The committee's been also discussing audits and I know, Mr. 
Palmer, we had a conversation. Thank you for meeting with me in 
my office. But we've also talked about, as those audits, the 
risk-limiting audits and whether or not they should be used 
more broadly across the country.
    I'm curious for both of you. Can you describe your views on 
the types of audits that are most effective and the process of 
putting these audits in place and how we can work with our 
localities, whether rural, urban, to ensure that we're 
implementing the best practices when it comes to audits?
    I'm curious to hear your thoughts on that. Maybe we start 
with Mr. Palmer.
    Mr. Palmer. Sure. Thank you, Senator.
    Audits obviously is a best practice and from my experience 
in Florida particularly, audits have been used to make sure the 
equipment is working as designed and tabulating correctly and 
so there have been sort of an evolution on how audits have been 
done in Florida and other states have different types of audits 
that may look at certain precincts.
    The risk-limiting audit in the State of Colorado, it took a 
number of years to get Colorado to the point where they could 
do that risk-limiting audit.
    Senator Cortez Masto. Is that the best practice, though? A 
risk-limiting audit of all the audits, is that the best 
practice for identifying?
    Mr. Palmer. I'm not sure I would characterize it. It's 
definitely the most sophisticated. It's the most sophisticated. 
I'm sure there's an underlying rationale that I'll learn very 
quickly as to why many believe that is the most sophisticated 
way of doing it, but audits have been in place for a long time 
and so as we determine what is the best practice, the EAC, for 
example, has done a paper on this.
    You know, many counties or states, they may have their own 
indication of what they would like to implement as the result 
of an audit.
    Senator Cortez Masto. Okay.
    Mr. Hovland. Thank you, Senator, for the question.
    I think that when we think about audits and best practices, 
I think the end goal is to be confident in the result and so I 
would say the best practice for audits is what allows you to 
get to that.
    The Colorado model is obviously a great one, but their 
risk-limiting audit, my understanding is it's a ballot 
comparison audit and requires a certain system that allows you 
to keep track of the order of the ballots.
    You can also do a different type of risk-limiting audit, a 
poll audit, and that is also successful, but I think at the end 
of the day, because we have all of the states running their 
elections in different ways with different equipment, the end 
goal should be having that confidence in the outcome of the 
election and doing the audit that you can do with the system 
you have.
    If your system doesn't have the capacity to audit, that is, 
I would say, a larger problem.
    Senator Cortez Masto. Okay. Thank you. I notice my time is 
up.
    Thank you very much.
    Chairman Blunt. Thank both of you for being here.
    Do either of you have anything you want to add that you'd 
like to go on the record here?
    [No response.]
    Chairman Blunt. You know, I did see a lot of discussion 
about whether or not elected officials should be the manager of 
elections that they're involved in, which is, by the way, 
almost always the case. If you're going to be the election 
official for a county or the election official for a state, at 
some point if you're elected, you're going to be involved in 
one of those elections.
    I understand some of the concern about that, but I've also 
done both of those jobs and dealt with people over the years 
that have done both of those jobs, and I think they take it 
particularly seriously. It is their job. They're elected to do 
it.
    As Senator King said, it's like all of your efforts are to 
make a product available and it's only available for 1 day and 
you really want people to believe that you did the good job 
you're going to do. I just would think we ought to be careful 
about that discussion.
    It's unlikely in your working careers on the Commission 
States are going to rapidly change to some other structure that 
they don't have and so you're going to be dealing with elected 
officials. You're going to be dealing, as both of you have 
pointed out, with states and localities that have their own 
election laws and their own election systems. Usually even 
within states, there are numerous election systems.
    I think you're actually both very well prepared for that 
and I think we're done with the hearing today.
    Senator Klobuchar and I have talked about this. We've 
agreed that the committee will meet on December 4th to consider 
your nominations and hopefully report them out and on that same 
meeting, we're going to mark up Senate Bill 1010, which is the 
Register of Copyright Selection and Accountability Act, and the 
record on this hearing will remain open until Monday, December 
3rd, and again we'll meet on the next day to act on these 
nominations.
    [The information referred to was submitted for the record.]
    The committee is adjourned and look forward to moving 
forward with this.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
